Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619·4949• Fax No. (212) 608-3141

STATE OF NEW YORK,

)

COUNTY OF NEW YORK

)

SS:

80356

AFFIDAVIT OF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 2nd day of October 2019 deponent served 3 copies of the within
BRIEF FOR AMICI CURIAE LAW PROFESSORS
IN SUPPORT OF PETITIONER

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

David L. Finger, Esq.
Finger & Slanina, LLC
1201 N Orange Street
One Commerce Center, 7th Floor
Wilmington, DE 19801
[302) 573-2525
dfinger@de lawg rou p.com

Michael W. McConnell
Counsel of Record
Wilson Sonsini Goodrich & Rosati, PC
650 Page Mill Road
Palo Alto, CA 94304
(202) 879-5000
mcconnell@law.stanford.edu

Attorneys for Respondent

Attorneys for Petitioner

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on October 2, 2019, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served.

/4NJ~ q ) ~
Howard Daniels

Sworn to me this

October 2, 2019
NADIA R. OSWALD HAMID
Notary Public. State of New York
No. 010S6101366
Quahfied in Kings County
Commission Expires November 10, 2023

ry Pub

Case Name: Governor of Delaware v. Adams
Docket No. 19-309

